Ti
vummne (COCKLE

L egal Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 .

No. 19-975

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL CENTER,
Petitioners,

v.

U.S. DEPARTMENT OF HOMELAND SECURITY
AND CHAD WOLF, ACTING SECRETARY OF THE
U.S. DEPARTMENT OF HOMELAND SECURITY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
LOCAL GOVERNMENTS IN SUPPORT OF PETITIONERS in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 5988 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

=| ene] Kee hor Oudeah, Ble

My Comm. Exp. September 8, 2023 -
Notary nec. Affiant 39469

 
